USCA11 No. 21-10331

IN THE SUPREME COURT OF THE UNITED STATES

VINCENT JONES,
Petitioner,
-vsMARK INCH, SECRETARY, FLORIDA
DEPARTMENT OF CORRECTIONS,
Respondent.

APPENDIX TO PETITION FOR WRIT OF CERTIORARI

ON PETITION FOR WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEAL FOR THE ELEVENTH CIRCUIT

Vincent Jones, DC# 663589
Okaloosa Correctional Institution
3189 Colonel Greg Malloy Rd
■Grestv-iew,-F-L-32539---------------

TABLE OF APPENDICES
APPENDIX A
U.S. Court of Appeal, Eleventh Circuit, denial of Application of Certificate of Appelability,
April 20, 2021
APPENDIX B
U.S. District Court, Southern District of Florida, dismissal of 28 U.S.C. § 2254 Petition for
Writ of Habeas Corpus, January 11, 2021
APPENDIX C
Fourth District Court of Appeal, State of Florida, mandate of postconviction appeal, September
4, 2021
APPENDIX D
Fourth District Court of Appeal, State of Florida, denial of postconviction appeal, August 6,
2020
APPENDIX E
Seventeenth Judicial Circuit Court, Broward County, Florida, denial of Motion for
Postconviction Relief, April 13, 2020
APPENDIX F
Seventeenth Judicial Circuit Court, Broward County, Florida, order striking designation of
habitual felony offender, September 18, 2018
APPENDIX G
Fourth District Court of Appeal, State of Florida, mandate of direct appeal, August 18, 2017
APPENDIX H
Fourth District Court of Appeal, State of Florida, order affirming in part, reversing in part, and
remanding, direct appeal, July 19, 2017

USCA11 Case: 21-10331

Date Filed: 04/20/2021

Page: 1 of 3

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 21-10331-E
VINCENT JONES,
Petitioner-Appellant,
versus
FLORIDA DEPARTMENT OF CORRECTIONS,
Secretary, Florida Department of Corrections,
Respondent-Appellee.
Appeal from the United States District Court
for the Southern District of Florida
ORDER:
Vincent Jones, a Florida prisoner serving a life sentence for first-degree murder and
attempted first-degree murder, moves for a certificate of appealability (“COA”) in order to appeal
the denial of his 28 U.S.C. § 2254 petition as time-barred. In order to obtain a COA, a movant
must make “a substantial showing of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2).
Where the district court denied a habeas petition on procedural grounds, the petitioner must show
that reasonable jurists would debate (1) whether the petition states a valid claim of the denial of a
constitutional right, and (2) whether the district court was correct in its procedural ruling. Slack v.
McDaniel, 529 U.S. 473, 484 (2000).
Under the Antiterrorism and Effective Death Penalty Act (“AEDPA”), § 2254 petitions are
governed by a one-year statute of limitations that begins to run oh the latest of four triggering

USCA11 Case: 21-10331

Date Filed: 04/20/2021

Page: 2 of 3

events, including “the date on which the judgment became final by the conclusion of direct review
or the expiration of the time for seeking such review.” 28 U.S.C. § 2244(d)(1)(A). When a state
prisoner does not pursue review all the way to the U.S. Supreme Court, that prisoner’s conviction
becomes final when the time for seeking direct review in the U.S. Supreme Court or a state court
expires. Gonzalez v. Thaler, 565 U.S. 134,149-50, 154(2012). Additionally, the one-year federal
limitations period is statutorily tolled while a properly filed application for state post-conviction
relief is pending. 28 U.S.C. § 2244(d)(2). However, once the limitations period has expired, a
subsequent state court filing cannot revive it. Sibley v. Culliver, 377 F.3d 1196, 1204 (11th Cir.
2004).

For purposes of determining timeliness under the AEDPA, there is one judgment,
comprised of both the underlying conviction and the most recent sentence authorizing the
petitioner’s current detention. Insignares v. Sec ’y, Fla. Dep’t of Corr., 755 F.3d 1273, 1281
(11th Cir. 2014). Because the AEDPA’s limitation provisions focus on the judgment holding the
petitioner in confinement, a resentencing will result in a “new judgment” that effectively restarts
the limitations period. Id. However, not all changes to a sentence render an order a “new
judgment.” Patterson v. Sec’y, Fla. Dep’t of Corr., 849 F.3d 1321, 1326 (11th Cir. 2017) (en
banc). In Patterson, this Court concluded that the petitioner’s original judgment of conviction and
sentence of life imprisonment plus chemical castration was the only judgment allowing the
department of corrections to imprison him, and the subsequent order granting his motion to correct
his sentence, ruling that he would not have to undergo chemical castration, was not a new judgment
because it imposed no sentence and gave the department no authority. Id. at 1326.
Here, reasonable jurists would not debate the district court’s determination that Jones’s
§ 2254 petition was time-barred. Because Jones did not appeal his convictions to the Florida

2

USCA11 Case: 21-10331

Date Filed: 04/20/2021

Page: 3 of 3

Supreme Court, the convictions became final when the time to seek appellate review expired on
August 18, 2017, which was 30 days after the Fourth District Court of Appeals affirmed his
convictions and sentence on July 19, 2017. See Gonzalez, 565 U.S. at 154; Fla. R. App. P.
9.120(b). From then, the limitations period continued, untolled, until it expired on August 19,
2017. Jones’s Rule 3.850 motions had no tolling effect because the limitations period already had
run. See Sibley, 377 F.3d at 1204. Thus, Jones’s § 2254 petition was untimely, and no COA is
warranted on this issue. See 28 U.S.C. § 2244(d)(1)(A); Slack, 529 U.S. at 484.
Further, Jones’s argument that the state court’s September 18, 2018, order constituted a
new judgment, and thus restarted the AEDPA limitations period, is unconvincing. The only
change implemented by this order was to strike the habitual-felony-offender designation from
Jones’s first-degree murder counts. This order neither imposed a new sentence, nor authorized the
Florida Department of Corrections to take any action as to Jones’s sentence. See Patterson,
849 F.3d at 1326. Therefore, the September 18, 2018, order was not a “new judgment” and did
not restart Jones’s AEDPA limitations period.
Accordingly, Jones’s motion for a COA is DENIED because reasonable jurists would not
debate the district court’s dismissal of his § 2254 petition as time-barred. Slack, 529 U.S. at 484.
/s/ Kevin C. Newsom
UNITED STATES CIRCUIT JUDGE

3

• , , Case: 0:20-cv-62667-KMM

Document #: 6 Entered on FLSD Docket: 01/11/2021
of 6

Page 1

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
Case No. 0:20-cv-62667-KMM
VINCENT JONES,
Petitioner,
v.
MARKS. INCH,
Respondent.
ORDER
THIS CAUSE came before the Court upon Vincent Jones’s (“Petitioner”) Petition for Writ
of Habeas Corpus under 28 U.S.C. § 2254. (“Pet.”) (ECF No. 1). The Petition attacks the
lawfulness of his conviction in Case Number 14004472CF10A, Seventeenth Judicial Circuit of
Florida, Broward County.

I.

BACKGROUND
On March 27, 2015, a jury convicted Petitioner of two counts of first-degree murder and

one count of attempted first-degree murder. Pet. at 1. The trial court imposed life sentences on
the first-degree murder counts and a life sentence with a 20-year mandatory minimum sentence on
the attempt count. Id. On April 17, 2015, he filed a notice of appeal. (ECF No. 5-3). On July 19,
2017, the Fourth District Court of Appeals (“Fourth District”) “affirm[ed] his conviction and
sentences, but reverse[d] his designation as a habitual felony offender.” Jones v. State, 225 So. 3d
290, 292 (Fla. Dist. Ct. App. 2017). Accordingly, the Fourth District “remand[ed] with directions
to strike the designation of habitual felony offender for the first degree murder counts.” Id.
Petitioner did not seek review in the Florida Supreme Court. Pet. at 2.

B

. uase: u:^u-uv-d/:dd/-imviivi

uucuinem w. o

cruereu un t-Lcsu uuoKtH; ui/ix/^u^x
Of 6

raye <l

On September 6, 2018, Petitioner filed a motion for postconviction relief under Florida
Rule of Criminal Procedure 3.850. (“First 3.850 Motion”) (ECF No. 5-2) at 1, 9. On September
28,2018, the trial court denied the First 3.850 Motion without prejudice. (ECF No. 5-4). Petitioner
did not appeal. Pet. at 3.
Meanwhile, on September 18, 2018, the trial court entered an order “strik[ing] the
designation of habitual felony offender for the first degree murder counts.” (ECF No. 5-5). On
October 11, 2018, Petitioner filed a second motion for postconviction relief under Florida Rule of
Criminal Procedure 3.850, which he amended on August 19, 2019. (“Second 3.850 Motion”)
(ECF No. 5-6) at 1; (ECF No. 5-7) at 1. On April 13,2020, the trial court denied the Second 3.850
Motion. (ECF No. 5-8) at 1,4. On April 22, 2020, Petitioner filed a notice of appeal. (ECF No.
5-9). On August 6, 2020, the Fourth District affirmed without comment. Jones v. State, 300 So.
3d 1184 (Fla. Dist. Ct. App. 2020) (table). The Fourth District issued its mandate on September
4,2020. (ECF No. 5-10). Petitioner did not seek review in the Florida Supreme Court. See (ECF
No. 5-1) at 5.
II.

LEGAL STANDARD
Rule 4 of the Rules Governing § 2254 Cases provides that, “[i]f it plainly appears from the

petition and any attached exhibits that the petitioner is not entitled to relief in the district court, the
judge must dismiss the petition.” “This preliminary review calls on a district court to perform a
screening function, ordering summary dismissal where a petition makes no meritorious claim to
relief.” Paez v. Sec’y, Fla. Dep’t ofCorr., 947 F.3d 649, 653 (11th Cir. 2020). “Both a procedural
bar and a merits-based deficiency could lead a district court to conclude that the petitioner is not
entitled to relief.” Id. at 654 (citation and internal quotation marks omitted). In reviewing a

2

^ase: u:^u-uv-o^oo/-i\iviivi
i k-

uuuumeniff; o cmeieu un i-lou uuuKei: u±/n/zu^x
Of 6

raye cs

petition under Rule 4, courts must construe it liberally. Enriquez v. Fla. Parole Comm’n, 227 F.
App’x 836, 837 (11th Cir. 2007) (per curiam) (citation omitted).
(

“The federal Antiterrorism and Effective Death Penalty Act of 1996 (AEDPA) establishes
a 1-year statute of limitations for filing a federal habeas corpus petition. Pace v. DiGuglielmo,
544 U.S. 408,410 (2005) (citing § 2244(d)(1)). Pertinently, the year commences on “the date on
which the judgment became final by . . . the expiration of the time for seeking [direct] review.”
§ 2244(d)(1)(A). Under this clause, “the judgment becomes final. . . when the time for pursuing
direct review in [the Supreme] Court, or in state court, expires.” Gonzalez v. Thaler, 565 U.S. 134,
150 (2012). In Florida, when a District Court of Appeal issues a written opinion, the defendant
has 30 days from the opinion’s date of issuance to invoke the Florida Supreme Court’s jurisdiction.
Compare Jenkins v. State, 385 So. 2d 1356, 1359 (Fla. 1980) (Florida Supreme Court may review
written decisions of the District Courts of Appeal), with Sims v. State, 998 So. 2d 494, 498 (Fla.
2008) (jurisdiction of Florida Supreme Court must be invoked by filing notice within 30 days of
rendition of the order for review (citing Fla. R. App. P. 9.120(b)), and Roy v. State, 211 So. 2d
554, 555 (Fla. 1968) (rendition of order occurs, as relevant here, “when it is filed”; “the filing of a
mandate ... has no bearing upon the time allowed to initiate the certiorari proceedings”).
The 1-year AEDPA statute of limitations is subject to statutory tolling under some
circumstances. “The time during which a properly filed application for State post-conviction or
other collateral review with respect to the pertinent judgment or claim is pending shall not be
counted toward any period of limitation under [§ 2244(d)].” 28 U.S.C. § 2244(d)(2); Pace, 544
U.S. at 410.

3

^ase; u;<'u-uv-o<'oo/-r\ivuvi
i.

’<•

III.

uuoumeni w. o

cmereu uii i-lcsl/ uuuKtn: uxmi/Lvti
Of 6

raye

DISCUSSION
Here, Petitioner’s judgment of conviction became final for § 2241(d)(1)(A) purposes on

August 18, 2017—30 days after the Fourth District affirmed his conviction and sentences on July
19, 2017. At that time, his deadline for pursuing direct review of his judgment of conviction in
the Florida Supreme Court expired. Petitioner was not entitled to seek review of the Fourth
District’s decision in the U.S. Supreme Court because the Fourth District issued a written decision
of which he could have sought review in the Florida Supreme Court but failed to. Compare
Gonzalez v. Thaler, 565 U.S. 134, 154 (2012) (“We can review ... only judgments of a state court
of last resort or of a lower state court if the state court of last resort has denied discretionary
review.” (citations and internal quotation marks omitted)), with Jenkins, 385 So. 2d at 1359
(indicating that District Court of Appeal not a court of last resort under Florida law where it issues
a written decision).
To be eligible for statutory tolling of the 1-year AEDPA limitations period, Petitioner
would have had to initiate some post-conviction proceedings prior to August 18, 2018. However,
Petitioner did not file his First 3.850 Motion until September 6, 2018. Thus, 384 days of un-tolled
statutory time elapsed before Petitioner took any action that would trigger statutory tolling. Any
postconviction litigation commenced after August 18, 2018 does not change this outcome.
Webster v. Moore, 199 F.3d 1256, 1259 (11th Cir. 2000) (per curiam) (“A state-court
petition . .. that is filed following the expiration of the limitations period cannot toll that period
because there is no period remaining to be tolled.”). All of Petitioner’s post-conviction litigation
commenced after this date. Supra Part I. Accordingly, no statutory tolling is warranted here.1

' Petitioner has not argued that he is entitled to equitable tolling or that any exception to the statute
of limitations would apply. See generally Pet.
4

.

>•

uase; u:<'u-uv-o^oo/-i\ivnvi

uucumeui #. o

cmeieu un r-Lsu uuuKtu; ui/11/^u^x
Of 6

raye o

Petitioner contends that the Petition is timely because his judgment of conviction allegedly
became final on September 18, 2018, when the Fourth District entered its order striking the
designation of habitual felony offender. Pet. at 9. However, a resentencing order constitutes a
new judgment under AEDPA only if it vacates the defendant’s sentence and replaces it with a new
one and/or expressly commits the defendant to correctional custody. See Patterson v. Sec 'y, Fla.
Dep’t ofCorr., 849 F.3d 1321, 1325-27 (11th Cir. 2017) (en banc). Here, the order at issue did
not vacate Petitioner’s sentence and replace it with a new one, expressly commit him to
correctional custody, or even change the length of his sentence. (ECF No. 5-5). Thus, the order
was not a new judgment under AEDPA. See Patterson, 849 F.3d at 1325-27.2
IV.

CONCLUSION
Accordingly, UPON CONSIDERATION of the Petition, the pertinent portions of the

record, and being otherwise fully advised in the premises, it is hereby ORDERED AND
ADJUDGED that the Petition (ECF No. 1) is DISMISSED as untimely and that no certificate of
appealability shall issue. The Clerk of Court is INSTRUCTED to CLOSE this case.
DONE AND ORDERED in Chambers at Miami, Florida, this 11th day of January, 2021.

W/f Mtrt/__________
ft. MICHAEL MOORE
CHIEF UNITED STATES DISTRICT JUDGE
Section 2244 “does not require a hearing on the issue of time-bar or equitable tolling, so the
decision as to whether to conduct an evidentiary inquiry is a matter left to the sound discretion of
the district court.” Drew v. Dep’t of Corr., 297 F.3d 1278, 1292 (11th Cir. 2002) (citations
omitted), overruled on other grounds as recognized by Jones v. Sec’y, Fla. Dep’t of Corr., 906
F.3d 1339, 1351 (11th Cir. 2018). Here, an evidentiary hearing is not warranted. The Petition is
untimely and Petitioner’s allegations do not suggest that he would be able to develop facts
sufficient to overcome the time bar. See Schriro v. Landrigan, 550 U.S. 465,474 (2007) (“[I]f the
record ... precludes‘h"abeas relief,~aliMnctcourrisnot requiredtoiroldw^videmlaryTTeanng:’’)5

^ase:

cc:

u:^u-uv-D/'dd/-i\iviivi

uuuumeru w. o

ciuereu un r-Lcsu uucKei: ui/ix/^u^x
Of 6

Vincent Jones
663589
Okaloosa Correctional Institution
Inmate Mail/Parcels
3189 Colonel Greg Malloy Road
Crestview, FL 32539
PRO SE

6

raye o

Case: 0:20-cv-62667-KMM

Document #: 5-10 Entered on FLSD Docket: 01/07/2021
Page 1 of 1

A

M

D

N

A

T

E

from
DISTRICT COURT OF APPEAL OF THE STATE OF FLORIDA
FOURTH DISTRICT
^ This cause having been brought to the Court by appeal; and after due
consideration the Court having issued its opinion;

'

,:4-'

, .;v'v

YQUARE HEREBY COMMANDED that such further proceedings be had in said
cause as may be ih accordance with the opinion of this Court, and with the rules of
procedure and laws of the State of Florida^
*

.

'

'

^

,

.

■

.

•:

WITNESS the Honorable Spencer D. Levine, Chief Judge of the District Court of
Appeal of the State of Florida, Fourth District, and seal of the said Court at West Palm
Beach, Florida on this day.
\

DATE:
CASE NO.:
COUNTY OF ORIGIN:
T.C. CASE NO.:
STYLE:

September 04,2020
20-1098
Broward
14-004472 CF10A

VINCENT KEITH JONES

v.

\

STATE OF FLORIDA

\„

.gfcgwHS;
Mt

■■■>■;

•

el

©E

B.

t/>W4P

] /T

LONN WEISSBLUM, Clerk
Fourth Oistrict Court of Appeal

>*•35

Served:
cc; Attorney General-W. P. B.
Clerk Broward

Vincent Keith Jones

State Attorney-Broward

kr

CL

Page 1 of 1

Florida District Courts of Appeal Online Docket

Florida Fourth District Court of Appeal Docket
Case Docket
Case Number: 4D20-1098
Final Criminal 3.850 Notice from Broward County
VINCENT KEITH JONES vs. STATE OF FLORIDA
Lower Tribunal Case(s): 14-004472 CF10A
6/18/2021 8:58:23 AM
Date
Docketec

Description

Filed By

Notes

Notice of Appeal Vincent Keith
Jones
Filed
Received
05/05/2020 Summary Record
Acknowledgment
05/05/2020
Letter
Affirmed - Per
08/06/2020 Curiam Affirmed
09/04/2020 Mandate
09/04/2020 West Publishing
05/05/2020

Order Per Section
16(b)(10)b., Fla.
0/12/2020 Const. - Time
Expired

Article I, section 16(b)(10)b. of the Florida
Constitution provides that all state-level appeals
and collateral attacks on any judgment must be
complete within two years of the date of appeal
in non-capital cases and five years from the date
of appeal in capital cases unless a court enters an
order with specific findings as to why the court
was unable to comply and the circumstances
causing the delay. Pursuant to the administrative
procedures and definitions set forth in Supreme
Court of Florida Administrative Order No.
AOSC19-76, this case was not completed within
the time frame required by Article I, section 16
(b)(10)b. because the applicable time frame had
already expired by the time this case was filed.
Therefore, the Court is required to issue this
order. The parties to this case are advised that no
further action is necessary, and this case is
completed and no further filings will be
entertained.

D

■

.Case: 0:20-cv-62667-KMM
*

Document #: 5-8 Entered on FLSD Docket: 01/07/2021
1 of 4

Page

IN THE CIRCUIT COURT OF THE 17™ JUDICIAL CIRCUIT
IN AND FOR BROWARD COUNTY. FLORIDA
Case No. 14-4472CF10A

STATE OF FLORIDA.

Judge: Bernard Bober

Plaintiff,

v.
VINCENT KEITH JONES.
Defendant.

s'

ORDER DENYING DEFENDANT'S PRO SE
AMENDED MOTION FOR POST-CONVICTION RELIEF
THIS CAUSE came before the Court upon Defendant’s pro se Amended Motion for

\

Post-Conviction Relief, pursuant to Rule 3.850, Florida Rules of Criminal Procedure, submitted
to prison authorities on August 19, 2019, and filed with the Court on August 26, 2019. Pursuant
to Court Order, the State filed a Response thereto gn April 2, 2020. Having considered the
instant motion, the Stated Response, the Court file, and applicable law, finds and decided as
follows:
On March 27,2015, Defendant was convicted by jury of file following offenses:
• Count 1—First-Degree Murder
• Count 2—First-Degree Murder
• Count 3—Attempted First-Degree Murder.
On that same day he was sentenced as follows:
Count 1—Life in prison, without the possibility of parole, and credit for 366 days of time
served; the Court also designated Defendant a habitual felony offender.
Count 2—-Life in prison, without the possibility of parole, and credit for 366 days of time
served, to be served concurrent to count 1; the Court also designated Defendant a
habitual felony offender.
, V- •

• O '»

;•

->•

■

* Count 3—Life in prison, with a minimum-mandatory term of twenty years for the use of a
firearm in the commission of the offense, and credit for 366 days of time served, to be
served concurrent to counts 1 and 2.
Defendant appeaied. and .the Fourth District Court of Appeal affirmed his convictions and
sentences, but reversed his designation as a habitual felony offender for counts 1 and 2, with
Page 1 of 1

E

uaat;: u:^u-cv-D/'DD/-fMviivi

uu.uumtiru w. o-o

ciiieTeu ori f-Lau uucKet: vxivn^vti

2 Of 4

raye

directions to the Court to strike the designation. Jones v. State, 225 So. 3d 290 (Fla. 4th DCA
\

2017). On August 18, 2017, the Mandate was entered. On September 18, 2018, pursuant to the
Order of the Fourth District Court, the Court entered On Order striking the designation Of habitual
felony offender from Defendant’s sentencing documents for counts 1 and 2.
On September 6, 2018, Defendant filed a pro se motion for post-conviction relief. On
September 28, 2018, the Court denied the motion without prejudice because the claims raised
therein were legally insufficient, the Court gave Defendant an opportunity to amend his motion
with legally sufficient claims within the two-year time period set forth in Rule 3.850(b).
In the Instant (amended) motion, Defendant raises the following five claims:
Claim 1
Defendant states, "Defendant was denied effective assistance of counsel when
counsel did not move by a motion for mistrial due to the damaging prejudicial
comments against the Defendant’s presumption of innocence in the minds of the
jury."
Claim2
Defendant states, "Counsel rendered ineffective assistance of counsel by
persuading the Defendant to give up his inalienable right to defend his life, liberty
and his right to pursue happiness by defending that life and liberty by testifying at
trial and publishing his side of events to the jury.”
Claim 3
Defendant states, “Trial counsel rendered ineffective assistance of counsel when
he refused to allow the jury to hear the exculpatory testimony of Gerald Bell, in
the Defendant’s behalf."
Claim 4
Defendant states, "Counsel was ineffective for failing to move the Court to find
Defendant incompetent to stand trial.”
Claim 5
;

Defendant states, “Counsel rendered ineffective assistance of counsel fbi failing .
to move for a mistrial which would have not allowed sleeping jurors to continue
over the defendant’s trial as jurors and convict him."
The Court adopts and incorporates herein the legal and factual reasoning that is

contained in the State's Response* and denies the instant motion. As more folly set forth in the
1 The State has certified that a copy of its 254-page Response was sent to Defendant via IJ.S. mail on April 2,2020; •
as such, an additional copy is not attached hereto.

Page 2 of4

v"

oase: u;^u-cv-ozoo/-t\ivnvi

uucumeni w: o-o emereu un hLsu
3 Of 4

uuckui:

vxiutii'vtx

rage

State’s Response, the claims raised in the instant motion fail, inter alia, for the following
reasons:
As to All Claims
All of the claims in the motion are bare allegations of ineffective assistance of
counsel and are legally Insufficient to establish a ground upon which relief can be
granted. Further, Defendant fails to allege any specific prejudice as a result of any
alleged deficiency on the part of his trial counsel. As noted above, Defendant was
given one prior opportunity to amend his motion with legally sufficient claims, but
has still failed to do so. Because the claims raised in the instant motion are still
legally insufficient, this motion is denied.
■
In addition to the legal insufficiency of the claims, they nonetheless would also fail for the
following specific reasons:
Claim 1
This claim is without merit and refuted by the record. Defendant cannot
demonstrate either a deficiency on the part of his trial counsel nor prejudice in
failing to ask for a mistrial in which it was trial counsel—not the prosecutor—who
asked the questions that are at issue in this claim, and the questions were asked
outside of the jury.
Claim 2
This claim is refuted by the record, the trial transcript reveals that the Court
engaged the Defendant in a colloquy in which Defendant stated that he
understood his right to remain silent and his right to testify, and he freely,
voluntarily, and intelligently chose not to testify.
Claim 3
This claim Is without merit and refuted by the record. Defendant knew and
understood that Mr: Bell would hot testify. There Was a discussion on the record
with Defendant and trial counsel about Mr. Bell's not being called as a witness,
and Defendant agreed with trial counsel that Mr. Bell would not be called.
Claim 4
This claim is without merit and refuted by the record. There is no evidence
whatsoever reflecting that Defendant was not competent to proceed to trial.
Nothing in the trial transcript reflects that Defendant lacked the ability to
understand the proceedings or assist counsel. Defendant was able to participate:
and had the ability to assist counsel since he participated in strategic decisions
and was able to understand his right to testify and to remain silent, as previously
noted, Moreover, an expert witness, Dr. Brannon, testified that Defendant
understood his Miranda rights when read by law enforcement, further evidencing
his competency.
•

- --------- —

-Claim 5

------- ------ --------------------------

this claim is without merit. Initially, this matter only occurred during the reading
of jury instructions. The Court questioned each of the jurors, and each of the
Page 3 of 4

•-

uuuumeniff; o-o tmiereu un r-ucsu
4 of 4

uabe: Ui^U-UV-D/lDOZ-MVilVI
i

uuukui; uj./u//^u^j.

rage

jurors stated that he or she was awake and listening. Thus, the Court resolved
this issue.
Based on the foregoing, it is
ORDERED AND ADJUDGED that Defendant's pro se Amended Motion for Post■

Conviction Relief is hereby DENIED.
•s ,

\

Defendant has
thirty (30)
days from
the date
of this Order to file an appeal.
•
*•
.
.
*
< •,
...

•

,

•-■l''-

.

>

/■,

V

DONE AND ORDERED in Chambers, Fort Lauderdale, Broward County, Florida, this
day of April. 2020.

,K

—^

\

CU CA^

BERNARD BOBER
v CIRCUIT COURT JUDGE

i

;N

Cppies furnished to:
Joel Silvershein, Esq.
Assistant State Attorney

N

/

Vincent Keith Jones, Defendant, DC #663589
Dade Correctional Institution
19000 SW 377 Street
Florida City, FL 33034-6409

v

V.*

\
*
: 'V

• '
'•v

. X

• x\ • '

’

Page 4 of 4

**** FILED: BROWARD COUNTY, FL Brenda D. Forman, CLERK 9/18/2018 4:16:40 PM.****

IN THE CIRCUIT COURT OF THE SEVENTEENTH JUDICIAL CIRCUIT
IN AND FOR BROWARD COUNTY, FLORIDA
STATE OF FLORIDA,

CASE NO.:

I4-4472CFI0A

Plaintiff,

DIVISION: FW

vs.

JUDGE:

BOBER

VINCENT JONES,
Defendant.
ORDER
THIS CAUSE, having come before the Court on Mandate from the District Court of
Appeal of the State of Florida Fourth District, dated August 18, 2017, Case No: 4D15-1528, it is
hereby
ORDERED that the Clerk of Court is directed to strike the designation of habitual felony
offender for the first degree murder counts in this case.
DONE AND ORDERED in Chambers this

day September, 2018, at Fort

Lauderdale, Broward County, Florida.

BERNARD I. BOBEk, Circuit Judge
Copies furnished:

vj

Tatjana Ostappff, Esq., Assistant Public Defender, West Palm Beach
-Richard Valuntas, Esq., Assistant Attorney General, West Palm Beach
^/Shari Tate, Esq., Assistant State Attorney

P

‘Florida District Courts of Appeal Online Docket

Page 1 of 4

Florida Fourth District Court of Appeal Docket
Case Docket
Case Number: 4D15-1528
Final Criminal Judgment and Sentence Notice from Broward County
VINCENT JONES vs. STATE OF FLORIDA
Lower Tribunal Case(s): 14-004472 CF10A
6/18/2021 8:57:19 AM
Date
Docketet

Description

Filed By

Joseph J.
Notice of Appeal
Pappacoda
Filed
0883018
Notice of Appeal Clerk Broward
04/20/2015
CC01
Filed
04/22/2015 ORD-Pay Filing
Fee-Criminal
Appeal

Notes

04/20/2015

The jurisdiction of this court was invoked by
filing of a Notice of Appeal in the lower tribunal.
The $300.00 filing fee, or a circuit court clerk's
determination of indigent status, did not
accompany the Notice of Appeal as required in
Florida Rules of Appellate Procedure 9.110(b)
and 9.140(a). The filing fee is due and payable at
the time of filing REGARDLESS OF
WHETHER THE APPEAL IS LATER
DISMISSED VOLUNTARILY OR
ADVERSELY. ORDERED, appellant shall pay
the $300.00 filing fee or file a circuit court clerk's
determination of indigency status in this Court
within ten (10) days from the date of the entry of
this order. Failure to comply within the time
prescribed will result in dismissal of this cause
and may result in the court sanctioning of any
party, or the party's attorney, who has not paid
the filing fee. The attorney filing the notice of
appeal has a duty to tender the filing fee to the
appellate court when the appeal is initiated. See
In Re Payment of Filing Fees, 744 So. 2d 1025
(Pla-4BGA—l-997)-Failure-of-the-attomey-to-pay-z
will result in referral to the Department of
Financial Services for collection. If appellant has
already been found indigent for purposes of

Page 2 of 4

Elorida District Courts of Appeal Online Docket

proceedings in the lower tribunal, in this or any
other criminal case and has remained incarcerated
since that time, please file a copy of that order in
this court. See Fla.R.App.P. 9.430(c)(1)(B).
**NOTE: This order does not toll the time for
filing any pleadings necessary to prosecute this
appeal and no extensions of time will be
entertained. Once the fee is paid, it is not
refundable. Except for dismissal, this court will
take no action in this appeal until the filing fee is
paid or until a circuit court clerk's determination
of indigent status is filed.
Acknowledgment
Letter
**DNU** ORD04/22/2015 LT Insolvency or
Indigency
Determination of
05/06/2015
Indigent Status
Mot for EOT to
Boss Reporting
05/12/2015 File Court
Reporter Note
04/22/2015

1_ '

. / /...1L - Janlr

A ** fl A /\1

AND APPOINTING P.D. 17

ORDERED that the court reporter's request for an
extension of time to file the transcript with the
circuit court is granted, and the time for
preparation and service of the transcript is
extended to and including August 6,2015.
Attorneys shall notify this court of
non-compliance; further, ORDERED that all
other time frames pertaining to the filing of the
record and briefs are extended accordingly. See
Fla. R. App. P. 9.300(b) (record on appeal is due
twenty (20) days after receipt of the transcript,
Appellant's initial brief shall be filed within thirty
(30) days from service of the index to the record.)

Order Granting
EOT for Court
05/14/2015
Reporter's
Transcript

Mot for EOT to
08/07/2015 File Court
Reporter Note
08/20/2015 Order Granting
EOT for Court
Reporter's
Transcript

Filed pursuant to this Court's Order dated April
22, 2015 by trial attorney Joe Pappacoda

Boss Reporting

j

ORDERED that the court reporter's request for an
extension of time to file the transcript with the
circuit court is granted, and the time for
preparation and service of the transcript is
extended to and including October 7, 2015.
Attorneys shall notify this court of noncompliance; .further, .ORDERED that all other
time frames pertaining to the filing of the record
and briefs are extended accordingly. See Fla. R.
App. P. 9.300(b) (record on appeal is due twenty

AfO fT\C' A 1?

OC11

If e/r’ac»»TV»r'1rf»t9fif>j»rr>htvrM»=OflSP!+NiimhP!r.:.

6/18/2021

Page 3 of 4

Florida District Courts of Appeal Online Docket

(20) day s after receipt of the transcript,
appellant's initial brief shall be filed within thirty
(30) days from service of the index to the
record.).
Mot for EOT to
10/06/2015 File Court
Reporter Note

Boss Reporting
ORDERED that the court reporter's request for an
extension of time to file the transcript with the
circuit court is granted, and the time for
preparation and service of the transcript is
extended to and including November 7,2015.
Attorneys shall notify this court of noncompliance; further, ORDERED that all other
time frames pertaining to the filing of the record
and briefs are extended accordingly. See Fla. R.
App. P. 9.300(b) (record on appeal is due twenty
(20) days after receipt of the transcript,
appellant's initial brief shall be filed within thirty
(30) days from service of the index to the
record.).

Order Granting
EOT for Court
10/14/2015
Reporter's
Transcript

2/01/2015 Received Records

Clerk Broward
CC01

SIXTEEN (16) VOLUMES

Designation of
2/07/2015 Public
Defender-P.B.
Notice of Agreed Public
01/04/2016 Extension - Initial Defender-P.B.
PD02
Brief
Notice of Agreed Public
03/09/2016 Extension - Initial Defender-P.B.
PD02
Brief
Notice of Agreed Public
04/08/2016 Extension - Initial Defender-P.B.
PD02
Brief
Public
Mot. for
05/06/2016 Extension of time Defender-P.B.
to file Initial Brief|PD02
05/12/2016 ORD-Initial Brief
to be Served

60 DAYS TO 03/03/16

30 DAYS TO 04/04/16

30 DAYS TO 05/05/16

ORDERED that appellant's May 6,2016 motion
for extension of time is granted, and appellant
shall serve the initial brief within sixty (60) days
from the date of this order. In addition, if the
initial brief is not served within the time provided
for in this order, the above-styled case will be
subject to dismissal or the court in its discretion
may impose other sanctions. Appellant is advised
that no further extensions will be granted absent a
detailed explanation for why the initial brief has

(/-i

j

nn

1

j

..

.\T______1.

/■/to /^/>A 1

Page 4 of 4

Florida District Courts of Appeal Online Docket

not yet been filed and a showing of extraordinary
circumstances where, if a further extension is not
granted, irreparable and material harm will result
to the litigant.
Public
Defender-P.B.
06/20/2016 Notice
PD02
Clerk Broward
Supplemental
08/23/2016
CC01
Records
Public
Initial Brief on
Defender-P.B.
09/06/2016
Merits
PD02
Notice of Agreed Richard
Chambers
10/05/2016 Extension Valuntas 0151084
Answer Brief
Notice of Agreed Richard
Chambers
Extension
01/03/2017
Valuntas 0151084
Answer Brief
Public
Notice of
Defender-P.B.
01/11/2017 Supplemental
PD02
Authority
Richard
Appellee's
Chambers
01/31/2017
Answer Brief
Valuntas 0151084
Affirmed in
Part/Reversed in
07/19/2017
Part - Authored
Opinion
08/18/2017 Mandate
08/18/2017 West Publishing |

OF PENDING MOTION TO CORRECT
DISPOSITION ERROR IN TRIAL COURT
MOTION TO CORRECT SENTENCING
ERROR (9 PAGES)

90 DAYS TO 1/2/17

30 DAYS TO 02/02/17

flpAnrfc r»ro/nrAR#»cn1tR/rn«:p;r)nr.kftt?Sftarchtvne=Case-l-Numher...

6/18/2021

District Court Of Appeal Of The State Of Florida
Fourth District
VINCENT JONES,
Appellant,
v.
STATE OF FLORIDA,
Appellee.
No. 4D15-1528
[July 19, 2017]
Appeal from the Circuit Court for the Seventeenth Judicial Circuit,
Broward County; Martin J. Bidwill, Judge; L.T. Case No. 14-4472 CF10A.
Carey Haughwout, Public Defender, and Tatjana Ostapoff, Assistant
Public Defender, West Palm Beach, for appellant.
Pamela Jo Bondi, Attorney General, Tallahassee, and Richard
Valuntas, Assistant Attorney General, West Palm Beach, for appellee.
May, J.
The defendant appeals his conviction and sentence for two counts of
first degree murder and one count of attempted first degree murder. He
raises three issues. First, he argues the trial court erred in denying his
motion for judgment of acquittal. In his second and third issues, he argues
the court erred in sentencing him to a mandatory minimum under the 1020-Life statute and in designating him as a habitual felony offender. We
affirm issues one and two, but find merit in his third issue. We therefore
affirm in part, reverse in part, and remand for the trial court to strike the
habitual felony offender designation.
The defendant’s conviction stems from a shooting incident outside of a
park. The jury found the defendant guilty of two counts of first degree
murder and one count of attempted first degree murder. Both at the
conclusion of the State’s case and after the close of the evidence, the
defendant moved for a judgment of acquittal, arguing the State failed to
prove premeditation. The court denied both motions.
The court sentenced the defendant to life sentences without parole for

H

. -V

the two counts of first degree murder. Due to his use of a gun, the court
sentenced the defendant to concurrent life sentences under section
775.087(l)(a), Florida Statutes (2016), the “10-20-Life” statute. For the
third count of attempted first degree murder, the court sentenced the
defendant to life with a twenty-year mandatory minimum term. The court
designated the defendant a habitual felony offender on the two counts of
first degree murder.
In his third issue, the defendant argues that the mandatory life
sentences cannot be enhanced by designating him as a habitual felony
offender under section 775.084(4)(a)l, Florida Statutes (2016). The State
agrees that capital crimes cannot be enhanced under this statute.
We have de novo review. Willard v. State, 22 So. 3d 864, 864 (Fla. 4th
DCA 2009).
Capital crimes cannot be enhanced under the plain language of section
775.084(4)(a)l. Parrimon v. State, 644 So. 2d 95, 96 (Fla. 2d DCA 1994).
The highest degree of felony which may be enhanced for a habitual felony
offender is a life felony or a felony of the first degree. § 775.084(4)(a)l,
Florida Statutes (2016). Here, the defendant was convicted of two counts
of first degree murder, which is a capital felony. He cannot be sentenced
as a habitual felony offender for these offenses.
We therefore affirm his conviction and sentences, but reverse his
designation as a habitual felony offender. We remand with directions to
strike the designation of habitual felony offender for the first degree
murder counts.
Affirmed in part, reversed in part, and remanded.
Taylor and Conner, JJ., concur.

Not final until disposition of timely filed motion for rehearing.

2

